•
Supreme- Court, U.S.
FILED

jUL 2 7 2020
OFFICE OF THE CLERK

Supreme Court of tf)e 0SntteiJ &tate#
JUNIOR GRIFFIN,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
PETITION FOR WRIT OF CERTIORARI

Junior Griffin
Petitioner
78178-054
555 Geo Drive
Philipsburg, PA 16866

RECEIVED
AUG 3 - 2020
OFFICE OF THE CLERK
SUPREME COURT. O S.

,}f

‘

1-

I
QUESTIONS PRESENTED
Petitioner Junior Griffin was charged with several crimes involving conspiracy,
possession and distribution of heroin, cocaine and marijuana. The charges were substantially
based on a series of wiretaps. At trial, when the government introduced the wiretap evidence,
counsel for Mr. Griffin moved to introduce the remainder of the wiretaps as exculpatory and
impeachment evidence. The motion was denied as inadmissible hearsay. Mr. Griffin was
convicted. On appeal, the Second Circuit affirmed.
1.)

When Mr. Griffin was denied his right to present critical exculpatory and

impeachment evidence through the unpresented remainder of the government’s surreptitious
recordings, was he also denied his constitutional right to present a complete defense
2.)

Where multiple additional errors affected petitioner’s conviction and/or sentence

in the courts below, should this Court exercise it’s supervisory power to vacate his conviction
and sentence?

i

•■r .

PARTIES TO THE PROCEEDINGS
IN THE COURT BELOW
The caption of the case in this Court contains the names of all parties to the proceedings
in the United States Court of Appeals for the Second Circuit.
More specifically, the Petitioner Junior Griffin and the Respondent United States of
America are the only parties. Neither party is a company, corporation, or subsidiary of any
company or corporation.

ii

RECEIVED
SEP 3 0 2020
OFFICE OF TH'
SI IPREME CC

* f

%

TABLE OF CONTENTS
Page:
Questions Presented

1

List of Parties to the Proceedings
in the Courts Below.........

ii

Table of Contents

iii

Table ofAuthorities

v

Petition for a Writ of Certiorari

1

Opinions Below

1

Statement of Jurisdiction

2

Constitutional Provisions,
Treaties, Statutes, Rules,
and Regulations Involved

3

Statement of the Case

5

Reasons for Granting the Writ

8

1.)

1A.)

IB.)

THIS COURT SHOULD GRANT MR, GRIFFIN’S PETITION FOR
WRIT OF CERTIORARI BECAUSE THE COURT OF APPEALS
FOR THE SECOND CIRCUIT HAS SO FAR DEPARTED FROM
THE ACCEPTED AND USUAL COURSE OF JUDICIAL
PROCEEDINGS AS TO CALL FOR AN EXERCISE OF THIS
COURT’S POWER OF SUPERVISION.....................................................

8

Mr. Griffin Was Denied His Right To Present Critical Exculpatory
And Impeachment Evidence Through The Unpresented Remainder
Of The Government’s Surreptitious Recordings And, Therefore,
Denied His Constitutional Right To Present A Complete Defense...........

9

Multiple Errors In The Courts Below Mandate That Mr. Griffin’s
Conviction And/Or Sentence Be Vacated...................................................

11

Conclusion

14

Appendix

15

iii

< r

IJSCA Opinion Dated 4-30-20

A

USDC Judgment & Commitment Order Entered 1-8-19

B

Griffin Motion Admit Exculpatory Tapes Entered 3-13-18

C

USDC Order 3-14-18 Denying Admission OfExculpatory Tapes Entered 3-14-18

D

iv

i

y

TABLE OF AUTHORITIES
Page:

Cases
. ” United States v. Hum,
368 F.3d 1359, 1363, 95 Fed. Appx. 1359 (IIth Cir. 2004)

9

Beech Aircraft Corp. v. Rainey,
488 US. 153, 172, 102 L. Ed. 2d 445,
10

109 S. Ct. 439 (1988)
Benanti v. United States,

8, 13

355 U.S. 96 (1957)
Bradley v. School Board of City of Richmond,

12

416 US. 696, 710-11 (1974)
Bradley v. United States,

12

410 US. 605, 607-08 (1973)
Chambers v. Mississippi,
410 U.S. 284, 302, 35 L. Ed. 2d 297,

9

93 S. Ct. 1038 (1973)
Crane v. Kentucky,
476 US. 683, 690, 106 S. Ct. 2142,

9

90 L. Ed. 2d 636 (1986)
Elkins v. United States,

8, 13

364 U.S. 206 (I960)
GACA v. United States,
411 U.S. 618 (1973)

8, 13
v

» r

Holmes v. South Carolina,
547 U.S. 319, 330-31, 126 S. Ct. 1727, 1734-35,
9

164 L. Ed. 2d 503 (2006)
Kaiser Aluminum & Chemical Corp. v. Bonjorno,
494 U.S. 827, 841 & n.l (1990)

11

(Scalia, J., concurring).
Lawrence v. Chater,
516 U.S. 163, 167-68, 133 L. Ed. 2d 545,

14

116 S. Ct. 604 (1996)
McNabb v. United States,

8, 9, 13

318 U.S. 332 (1943)
Rea v. United States,

8, 13

350 U.S. 214 (1956)
United States v. Almonte,
956 F.2d 27, 30 (2nd Cir. 1992)

9

United States v. Behrens,
8, 13

375 U.S. 162 (1963)
United States v. Blum,
62 F.3d 63; 1995 U.S App. LEXIS 20605 **11-12 (2nd Cir. 1995)

9

United States v. Granderson,
11

511 U.S. 39, 54 (1994)
United States v. Griffin,
2020 U.S. App. LEXIS 13879 * (2nd Cir. 4-30-20).

vi

7

* r*

United States v. Hudson,
970 F.2d 948; 1992 U.S. App. LEXIS 16608 (Is' Cir. 1992).

9

United States v. Jacobs,
8, 13

429 U.S. 909 (1976)
United States v. Molina,
407 F.3d511; 2005 U.S. App. LEXIS 9041 (1st Cir. 2005)

9

United States v. Santos,
11

553 U.S. 507, 514 (2008)
United States v. Schooner Peggy,

12

1 Crunch-103 (1801)
Yeaton v. United States,

12

5 Crunch 281, 283 (1809)

Statutes
iv

18 US.C §2
21 US.C. §841(a)(1)

ii, Hi, 5, 6

21 U.S.C. § 841(b)(1)(A)

ii, Hi, 5, 6

21 U.S.C. §841(b)(1)(B)

ii, Hi, 5, 6

21 U.S.C. §841(b)(1)(C)

ii, Hi, 5, 6

21 U.S.C. §841(b)(1)(D)

Hi, 5
ii, Hi, 5, 6

21 U.S.C. §846.
28 U.S.C. § 1254(1)

2, 1

First Step Act,
115 P.L. 391; 132 Stat. 5194;

vii

ii

r

2018 Enacted S. 756;
11

115 Enacted S. 756(12-21-2018)
Other Authorities
U.S.C.A. Fifth Amendment

9

U.S.C.A. Sixth Amendment.

3, 9

Rules
Fed. Rule ofEvidence 106

3, 10, 14

Fed. Rule ofEvidence 807

3

Supreme Court Rule 10

8

viii

* I

PETITION FOR A WRIT OF CERTIORARI
Junior Griffin, the Petitioner herein, respectfully prays that a writ of certiorari issue to
review the judgment of the United States Court of Appeals for the Second Circuit, entered in the
above entitled case on 4-30-20.
OPINIONS BELOW
The 4-30-20 opinion of the Court of Appeals for the Second Circuit, whose judgment is
herein sought to be reviewed, is an unpublished decision reported at 2020 U.S. App. LEXIS
13879 and is reprinted in the separate Appendix A to this Petition.
The prior opinion and judgment (Judgment & Commitment Order) of the United States
District Court for the Southern District of New York, was entered on 1-8-19, is an unpublished
decision, and is reprinted in the separate Appendix B to this Petition.
The prior opinion and judgment of the United States District Court for the Southern
District of New York denying admission of exculpatory tapes was handed down from the bench
on 3-14-18 and is reprinted in the separate Appendix D to this Petition.

1

It

I

»'

X
I

STATEMENT OF JURISDICTION
The judgment of the Court of Appeals was entered on 4-30-20. The jurisdiction of this
Court is invoked pursuant to 28 U.S.C. § 1254(1).

2

CONSTITUTIONAL PROVISIONS. TREATIES. STATUTES.
RULES AND REGULATIONS INVOLVED
The Sixth Amendment to the Constitution of the United States provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by
law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his
defense. Id.
Fed. Rule of Evidence 106 provides as follows:
Rule 106. Remainder of or Related Writings or Recorded Statements
When a writing or recorded statement or part thereof is introduced by a party, an
adverse party may require the introduction at that time of any other part or any
other writing or recorded statement which ought in fairness to be considered
contemporaneously with it.
Id. (as amended effective Jan. 2, 1975, P.L. 93-595, § 1, 88 Stat. 1929; Oct. 1,1987.)
Fed. Rule of Evidence 807 provides as follows:
Rule 807. Residual Exception
(a) In General. Under the following conditions, a hearsay statement is not
excluded by the rule against hearsay even if the statement is not admissible under
a hearsay exception in Rule 803 or 804:
(1) the statement is supported by sufficient guarantees of trustworthiness—after
considering the totality of circumstances under which it was made and evidence,
if any, corroborating the statement; and
(2) it is more probative on the point for which it is offered than any other evidence
that the proponent can obtain through reasonable efforts.
(b) Notice. The statement is admissible only if the proponent gives an adverse
party reasonable notice of the intent to offer the statement—including its
substance and the declarant's name— so that the party has a fair opportunity to
meet it. The notice must be provided in writing before the trial or hearing—or in
any form during the trial or hearing of the court, for good cause, excuses a lack of
earlier notice.
Notes
3

1
I

I
1.

Id. (As amended effective Apr. 11, 1997, effi Dec. 1, 1997; Apr. 26, 2011, eff. Dec. 1, 2011; Apr.
25, 2019, eff Dec. 1, 2019)

4

STATEMENT OF THE CASE
On or about 9-29-16 Junior Griffin was charged with violation of 21 U.S.C. § 841(a)(1),
21 U.S.C. § 841(b)(1)(A), 21 U.S.C. § 841(b)(1)(B), 21 U.S.C. § 841(b)(1)(C), 21 U.S.C. § 846
(Conspiracy to distribute and possess with intent to distribute specified quantities of heroin,
crack cocaine, and marijuana) (Count S1-1).
On or about 3-2-18, Junior GrifiBn was charged in a superseding indictment with
violation of 21 U.S.C. § 841(a)(1), 21 U.S.C. § 841(b)(1)(A), 21 U.S.C. § 841(b)(1)(B), 21
U.S.C. § 846 (Conspiracy to distribute and possess with intent to distribute 280 grams or more of
cocaine base in the form of “crack cocaine” and 500 grams or more of a mixture or substance
containing a detectable amount of cocaine) (Count S6-1); 21 U.S.C. § 841(a)(1), 21 U.S.C. §
841(b)(1)(C) (distribution and Possession with Intent to Distribute mixtures and substances with
a detectable amount of cocaine) (Count S6-2); 21 U.S.C. § 841(b)(1)(D) (Possession with Intent
to Distribute mixtures and substances with a detectable amount of marijuana) (Count S6-3).
These charges arose from an extensive series of conversations recorded by the
government and/or government agents.
No motion to suppress was filed or litigated by Mr. GrifiBn.
On or about 3-5-18 Mr. GrifiBn proceeded to trial. (Appendix B)
At trial, when the government introduced the wiretap evidence, counsel for Mr. GrifiBn
moved to introduce the remainder of the wiretaps as exculpatory and impeachment evidence. The
motion was denied as inadmissible hearsay.
On 3-16-18, Mr. GrifiBn was found guilty by the jury as to violation of 21 U.S.C. §
841(a)(1), 21 U.S.C. § 841(b)(1)(A), 21 U.S.C. § 841(b)(1)(B), 21 U.S.C. § 846 (Conspiracy to
distribute and possess with intent to distribute 280 grams or more of cocaine base in the form of
5

>4 I

“crack cocaine” and 500 grams or more of a mixture or substance containing a detectable amount
of cocaine) (Count S6-1); 21 U.S.C. § 841(a)(1), 21 U.S.C. § 841(b)(1)(C) (distribution and
Possession with Intent to Distribute mixtures and substances with a detectable amount of
cocaine) (Count S6-2).
When the Presentence Report was prepared, the Probation Officer recommended finding
a Total Offense Level 30 and a Criminal History of “I” which resulted in a guideline sentencing
range 97-121 months and a statutory mandatory minimum of 120 months:
On 1-8-19, Mr. Griffin appeared for sentencing. At sentencing, Mr. Griffin objected to the
entire “offense conduct” of the Presentence Report and asserted his innocence. The Court
corrected f21 of the Presentence Report by removing the allegation that Mr. Griffin provided
“large quantities” of crack cocaine but left in place |41 where the PSI stated that he had
distributed “specified quantities” of crack cocaine and cocaine. With that change, the Court
adopted the Presentence Report and sentenced Mr. Griffin to 120 months r incarceration.
(Transcript of sentencing 1-8-19).
On 1-8-19, Mr. Griffin was sentenced to 120 months incarceration for violations of 21
U.S.C. § 841(a)(1), 21 U.S.C. § 841(b)(1)(A), 21 U.S.C. § 841(b)(1)(B), 21 U.S.C. § 846
(Conspiracy to distribute and possess with intent to distribute 280 grams or more of cocaine base
in the form of “crack cocaine” and 500 grams or more of a mixture or substance containing a
detectable amount of cocaine) (Count S6-1); 21 U.S.C. § 841(a)(1), 21 U.S.C. § 841(b)(1)(C)
(distribution and Possession with Intent to Distribute mixtures and substances with a detectable
amount of cocaine) (Count S6-2). This sentence represented the PSI calculations as modified at
sentencing etc. (Appendix B)
The judgment was entered on 1-8-19.
6

On 1-17-19, a Notice of Appeal was filed. On direct appeal, counsel argued that the
district court erred in denying admission of the exculpatory remainder of the wiretaps made by
the government.
On 4-30-20, the Court of Appeals denied Mr. Griffin’s appeal. In denying the appeal, the
Court of Appeals held, inter alia, that the district court did not err in excluding certain recorded
communications under Fed. R. Evid. 807's residual hearsay exception because defendant failed
to satisfy the notice and probative importance requirements since he first requested to introduce
the evidence after the court impaneled the jury and after the government had prepared and
provided its exhibits for trial. United States v. Griffin, 2020 U.S. App. LEXIS 13879 * (2nd Cir. 430-20). (Appendix A)
Mr. Griffin demonstrates within that this Court should grant his Petition For Writ 0f
Certiorari because the court of appeals for the Second Circuit has so far departed from the
accepted and usual course of judicial proceedings as to call for an exercise of this Court’s power
of supervision.

7

1

I

REASONS FOR GRANTING THE WRIT
1.)

THIS COURT SHOULD GRANT MR, GRIFFIN’S PETITION FOR
WRIT OF CERTIORARI BECAUSE THE COURT OF APPEALS
FOR THE SECOND CIRCUIT HAS SO FAR DEPARTED FROM
THE ACCEPTED AND USUAL COURSE OF JUDICIAL
PROCEEDINGS AS TO CALL FOR AN EXERCISE OF THIS
COURT’S POWER OF SUPERVISION

Supreme Court Rule 10 provides in relevant part as follows:
Rule 10.
CONSIDERATIONS GOVERNING REVIEW
ON WRIT OF CERTIORARI
A review on writ of certiorari is not a matter of right, but of judicial
discretion. A petition for a writ of certiorari will be granted only when there are
special and important reasons therefor. The following, while neither controlling
nor fully measuring the Court’s discretion, indicate the character of reasons that
will be considered:
a United States court of appeals has rendered a decision in conflict
(a)
with the decision of another United States court of appeals on the same
matter; or has decided a federal question in a way in conflict with a state
court of last resort; or has so far departed from the accepted and usual
course of judicial proceedings, or sanctioned such a departure by a lower
court, as to call for an exercise of this Court’s power of supervision ...Id.
Supreme Court Rule 10(a).
This Court has never hesitated to exercise it’s power of supervision where the lower
courts have substantially departed from the accepted and usual course of judicial proceedings
with resulting injustice to one of the parties. McNabb v. United States, 318 U.S. 332 (1943).1 As
the Court stated in McNabb:
... the scope of our reviewing power over convictions brought here from the
federal courts is not confined to ascertainment of Constitutional validity. Judicial
supervision of the administration of criminal justice in the federal courts implies
the duty of establishing and maintaining civilized standards of procedure and
evidence.
i

See also GACA v. United States, 411 U.S. 618 (1973); United States v. Jacobs, 429 U.S. 909
(1976); Rea v. United States, 350 U.S. 214 (1956); Benanti v. United States, 355 U.S. 96 (1957);
United States v. Behrens, 375 U.S. 162 (1963); Elkins v. United States, 364 U.S. 206 (I960)..
8

McNabb. 318 U.S. at 340.
1A.)

Mr. Griffin Was Denied His Right To Present Critical Exculpatory
And Impeachment Evidence Through The Unpresented Remainder
Of The Government’s Surreptitious Recordings And, Therefore,
Denied His Constitutional Right To Present A Complete Defense

Whether rooted in the Due Process Clause of the Fifth Amendment or in the Compulsory
Process Clause of the Sixth Amendment, the Constitution guarantees criminal defendants the
right to present a defense. Crane v. Kentucky, 476 U.S. 683, 690, 106 S. Ct. 2142, 90 L. Ed. 2d
636 (1986); United States v. Blum, 62 F.3d 63; 1995 U.S. App. LEXIS 20605 **11-12 (2nd Cir.
1995) (citing United States v. Almonte, 956 F.2d 27, 30 (2nd Cir. 1992) and Chambers v.
Mississippi, 410 U.S. 284, 302, 35 L. Ed. 2d 297, 93 S. Ct. 1038 (1973)); United States v.
Molina, 407 F.3d 511; 2005 U.S. App. LEXIS 9041 **25 (1st Cir. 2005); United States v.
Hudson, 970 F.2d 948; 1992 U.S. App. LEXIS 16608 (1st Cir. 1992).
“[A] defendant must generally be permitted to introduce”: evidence directly pertaining to
any element of the charged offense or an affirmative defense; “evidence pertaining to collateral
matters that, through a reasonable chain of inferences, could make the existence of one or more
of the elements of the charged offense or an affirmative defense more or less certain”; and/or
evidence that “tends to place the story presented by the prosecution in a significantly different
light.” United States v. Hum, 368 F.3d 1359, 1363, 95 Fed. Appx. 1359 (11th Cir. 2004).
Additionally, “a defendant generally has the right to introduce evidence that is not itself tied to
any of the elements of a crime or affirmative defense, but that could have a substantial impact on
the credibility of an important government witness.” Id. Typically, a defendant may present
evidence of third-party guilt. See Holmes v. South Carolina, 547 U.S. 319, 330-31, 126 S. Ct.
1727, 1734-35, 164 L. Ed. 2d 503 (2006) (holding that a state law preventing evidence of third9

I I

party guilt was “arbitrary” and thus “violate| d] a criminal defendant’s right to have a meaningful
opportunity to present a complete defense” (quotation marks omitted)).
Moreover, Fed. Rule of Evidence 106 provides that when a writing or recorded statement
or part thereof is introduced by a party, an adverse party may require the introduction at that time
of any Other part or any other writing or recorded statement which ought in fairness to be
considered contemporaneously with it. The Advisory Committee Notes states that the rule is
based on two considerations. The first is the misleading impression created by taking matters out
of context. The second is the inadequacy of repair work when delayed to a point later in the trial.
For practical reasons, the rule is limited to writings and recorded statements and does not apply
to conversations. Beech Aircraft Corp. v. Rainey, 488 U.S. 153, 172, 102 L. Ed. 2d 445, 109 S.
Ct. 439 (1988).
In Mr. Griffin’s case, as set forth above, at trial, when the government introduced the
wiretap evidence, counsel for Mr. Griffin moved to introduce the remainder of the wiretaps as
exculpatory and impeachment evidence. (Appendix C) The motion was denied as inadmissible
hearsay and Mr. Griffin was convicted and the conviction was affirmed on direct appeal.
(Appendix D) (Appendix A).
Whether considered under Mr. Griffin’s constitutional right to present a defense or Fed.
Rule of Evidence 106, Mr. Griffin was prejudiced by the lower courts’ rulings.
Based on the foregoing, this Court should VACATE the Court of Appeals decision and
REMAND to that Court for reconsideration under Mr. Griffin’s right to present a complete
defense and Fed. Rule of Evidence 106.

10

I

1

IB.)

Multiple Errors In The Courts Below Mandate That Mr. Griffin’s
Conviction And/Or Sentence Be Vacated.

Mr. Griffin’s conviction and sentence are violative of the First, Fourth, Fifth, Sixth, And
Eighth Amendments to the constitution. More specifically, Mr. Griffin’s conviction and sentence
are violative of his right to freedom of speech and to petition and his,right to be free of
unreasonable search and seizure, his right to due process of law, his rights to counsel, to jury
trial, to confrontation of witnesses, to present a defense, and to compulsory process, and his right
to be free of cruel and unusual punishment under the constitution. The evidence was insufficient.
The government falsified and withheld material evidence. The District Court unlawfully
determined Mr. Griffin’s sentence. Counsel was ineffective in misadvising him to proceed to trial
and to not testify
First Step Act
Mr. Griffin is entitled to retroactive application of the First Step Act, 115 P.L. 391; 132
Stat. 5194; 2018 Enacted S. 756; 115 Enacted S. 756 (12-21-2018) as hereinafter more fully
appears.
Applying the First Step Act to non-final criminal cases pending on direct review at the
time of enactment is consistent with (1) longstanding authority applying favorable changes to
penal laws retroactively to cases pending on appeal when the law changes and (2) the text and
remedial purpose of the Act. To the extent the Act is ambiguous, the rule of lenity requires the
ambiguity be resolved in the defendant’s favor. United States v. Santos, 553 U.S. 507, 514
(2008); United States v. Granderson, 511 U.S. 39, 54(1994).
Preliminarily, “a presumption of retroactivity” “is applied to the repeal of punishments.”
Kaiser Aluminum & Chemical Corp. v. Bonjorno, 494 U.S. 827, 841 & n.l (1990) (Scalia, J.,
concurring). “[l]t has been long settled, on general principles, that after the expiration or repeal
11

.

T

of a law, no penalty can be enforced, nor punishment inflicted, for violations of the law
committed while it was in force, unless some special provision be made for that purpose by
statute.” Id. (quoting Yeaton v. United States, 5 Cranch 281, 283 (1809)). The common law
principle that repeal of a criminal statute abates all prosecutions that have not reached final
disposition on appeal applies equally to a statute’s repeal and re-enactment with different
penalties and “even when the penalty [is] reduced.” Bradley v. United States, 410 U.S. 605, 60708 (1973).
This Court has long recognized that a petitioner is entitled to application of a positive
change in the law that takes place while a case is on direct appeal (as opposed to a change that
takes place while a case'is on collateral review). Bradley v. School Board of City of Richmond,
416 U.S. 696, 710-11 (1974). The Court expressly anchored its holding in Bradley on the
principle that an appellate court “is to apply the law in effect at the time it renders its decision,
unless doing so would result in manifest injustice” or there is “clear legislative direction to the
contrary.” Id., 711, 715. It explained that this principle originated with Chief Justice Marshall in
United States v. Schooner Peggy, 1 Cranch 103 (1801): “[l]f subsequent to the judgment and
before the decision of the appellate court, a law intervenes and positively changes the rule which
governs, the law must be obeyed.” Id., 712 (quoting Schooner Peggy, 1 Cranch at 110).
Moreover, a change in the law occurring while a case is pending on appeal is to be given effect
“even where the intervening law does not explicitly recite that it is to be applied to pending
cases ...."Bradley, 416 U.S. at 715.
Since Mr. Griffin's judgment was not yet “final” on 12-21-18 when the First Step Act
was enacted, he is entitled to retroactive application of all relevant portions of the Act. Id.

12

These claims in Argument IB are submitted to preserve Mr. Griffin’s right to raise them
in a motion pursuant to 28 U.S.C. § 2255 if this Court declines to reach their merits.
Based on the foregoing, the decision by the Court of Appeals for the Second Circuit has
so far departed from the accepted and usual course of judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an exercise of this Court’s power of supervision. Id.
McNabb v. United States, 318 U.S. 332 (1943); GACA v. United States, 411 U.S. 618 (1973);
United States v. Jacobs, 429 U.S. 909 (1976); Rea v. United States, 350 U.S. 214 (1956); Benanti
v. United States, 355 U.S. 96 (1957); United States v. Behrens, 375 U.S. 162 (1963); Elkins v.
United States, 364 U.S. 206 (1960).
Based on all of the foregoing, this Court should grant certiorari and review the judgment
of the Court of Appeals for the Second Circuit in Mr. Griffin’s case.

13

CONCLUSION
For all of the foregoing reasons, Petitioner Junior Griffin respectfully prays that his
Petition for Writ of Certiorari be GRANTED and the case set for argument on the merits.
Alternatively, Petitioner respectfully prays that this Court GRANT certiorari, VACATE
the order affirming his direct appeal and REMAND2 to the court of appeals for reconsideration
in light of Mr. Griffin’s right to present a complete defense and Fed. Rule of Evidence 106.

Gjij ftih

Date:

mm

Junior Griffin
/o
Petitioner
78178-054
555 Geo Drive
Philipsburg, PA 16866

2 For authority on “GVR” orders, see Lawrence v. Chater, 516 U.S. 163, 167-68, 133 L. Ed. 2d
545, 116 S. Ct. 604(1996).
14

